F&A FEDERAL CREDIT UNION
VISA CREDIT CARD AGREEMENT AND DISCLOSURE
IMPORTANT – Retain for your records
Effective: AUGUST 16, 2016
CARD AGREEMENT
This Visa Credit Card Agreement and Disclosure (“Agreement”) is your contract with us. The Pricing Information Table below is a
part of this Agreement and shows important information about your Account, such as your Annual Percentage Rate and certain fees.
Any amendments to this Agreement are also part of this Agreement. Please read all parts of this Agreement and keep it for your
records.
PRICING INFORMATION TABLE
CA
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

8.90%

APR for Balance Transfers

8.90%

APR for Cash Advances

8.90%

Penalty APR and When it Applies
Paying Interest

None
Your due date is at least 21 days after the close of each billing cycle. We will not charge
you interest on purchases if you pay your entire balance by the due date each month. We
will begin charging interest on cash advances and balance transfers on the transaction
date.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card,
visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

Fees
Annual Fee
Transaction Fees
Balance Transfer
Cash Advance
Foreign Transaction
Penalty Fees
Late Payment
Returned Payment
Over the Credit Limit

None
None
None
1% of each transaction in U.S. dollars

Up to $20
Up to $5
None

How We Will Calculate Your Balance: We will use a method called “average daily balance (including new purchases).”
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided at the end of this
Agreement.
Details About Your Interest Rates and
Periodic Rate
Interest Calculations
Purchases
0.742% (M)
Balance Transfers
0.742% (M)
Cash Advances
0.742% (M)
(M) = Monthly periodic rate. A monthly periodic rate is the APR divided by 12.
02/01: 8/16/2016

1

Corresponding Annual Percentage
Rate (APR)
8.90%
8.90%
8.90%

DEFINITIONS
The following definitions apply to this Agreement:
 ACCOUNT: The line of credit associated with your Premier Rewards Visa Credit Card Account with us.
 ACCOUNT BALANCE: All authorized charges, plus any finance charges assessed on your Account, plus any other fees
and charges which you owe to us under the terms of this Agreement.
 AUTHORIZED USER: Any person you allow to use your Account with a Card we provided with that person’s name.
 BILLING PERIOD: The period of time between each date when we create a periodic statement for your Account. A
Billing Period is usually 23-26 days. For each Billing Period, your statement will show any Transactions, other charges,
payments and other credits posted during that Billing Period.
 CARD: The Premier Rewards Visa Credit Card issued to you (and any duplicates and renewals we may issue) used to access
your Account to obtain credit.
 CONSUMER REPORTING AGENCY: An organization, such as Experian, Equifax and TransUnion, that compiles credit
information for the purpose of generating consumer credit reports. It is also known as a “credit bureau” and a “credit
reporting agency.”
 LATE PAYMENT: A payment is late if you do not pay at least an amount equal to the Minimum Monthly Payment by the
Payment Due Date.
 RETURNED PAYMENT: A payment that is not honored by your financial institution.
 TRANSACTION: A Purchase, Balance Transfer or Cash Advance, as applicable.
 YOU, YOUR, and YOURS: Each and all of those who apply for or use the Card and/or VISA Credit Card Account.
 WE, US, OUR and CREDIT UNION: F&A FEDERAL CREDIT UNION.
YOUR ACCOUNT
BINDING AGREEMENT: This Agreement takes effect once you use your Card. Even if you do not use your Card, this Agreement
will take effect unless you contact us to cancel your Account within 45 days after we sent you this Agreement.
ACCOUNT USE: Your Account use is subject to this Agreement. All Transactions are subject to our approval. You may use your
Card to purchase goods and services in person, online, and by mail or telephone from merchants and others who accept Visa credit
cards. In addition, you may obtain cash advances from the Credit Union, from other financial institutions or select merchants
participating in the Visa program and from automated teller machines (ATMs) that provide access to the Visa system. Not all
merchants or ATMs provide such access. You will need to use your Personal Identification Number (PIN) to obtain a cash advance
from an ATM. Finally, you may use your Account to transfer balances from other creditors, provided that we approve your request.
RESPONSIBILITY: You must pay us for all amounts due on your Account, including: (1) Transactions you make, even if you did
not present your Card or sign for the Transaction; (2) Transactions an Authorized User makes; (3) Transactions that other people make
if you or an Authorized User let them use your Account; (4) an advance on your Account resulting from an overdraft created on your
checking account with us; and (5) any fees and interest charges on the Account. Your agreement to repay us extends to the use of the
Account by you or any other person you permit to use the Account, even if that person exceeds your permission. You cannot disclaim
responsibility by notifying us, although we will close the Account if you so request. Your obligation to pay the Account Balance
continues even though an agreement, divorce decree, or other court judgment to which we are not a party may direct someone else to
pay the Account Balance. The Cards remain our property and you must recover and surrender to us all Cards upon our request and/or
upon termination of this Account.
JOINT ACCOUNTS: If this is a joint Account, each of you will be individually and jointly responsible for paying all amounts owed
under this Agreement. This means that we can require any one of you individually to repay the Account Balance. Each of you
authorizes the other to make Transactions individually. Any one of you may close the Account and such closure will be effective as to
all of you. You agree that all notices regarding the Account may be sent solely to the cardholder whose name and address appears on
our billing records. If this is a joint account, neither party can be released from his or her obligations except upon the Credit Union’s
approval.
SIGNATURE REQUIREMENT: In order for your Card to be valid, you must activate and sign the Card as soon as you receive it.
However, your liability does not depend on whether or not you sign your Card.

02/01: 8/16/2016

2

CREDIT LIMIT AND CASH ADVANCE LIMIT: We assign a Credit Limit to your Account. This Credit Limit is available for
Cash Advances, and there is no separate limit on the amount of Cash Advances you can take in a given period. The Credit Limit is
shown in the Summary of Account Activity section on your periodic statement. You agree to manage your Account so that: (1) your
Account Balance (including fees and charges) is not more than your Credit Limit; and (2) your Cash Advance balance (including fees
and charges) is not more than your Cash Advance Limit. However, if your Account Balance exceeds your Credit Limit or Cash
Advance Limit, you are still obligated to pay us. We may increase or decrease your Credit Limit at any time and we may notify you
of such increase or decrease by mail or through a statement sent to the primary accountholder’s address of record, in accordance with
applicable legal requirements. If you object to any Credit Limit increase, you must notify us immediately. You or any co-borrower on
the Account may request a change to the Credit Limit orally, in writing, or electronically, but any such request must be approved by
us. If your Credit Limit is increased, you are immediately responsible for the new Credit Limit and any increase in the Account
Balance even when it differs from an amount previously agreed to orally or in writing. Cash Advances and Balance Transfers do not
earn Extra Awards points.
CONSUMER PURPOSES: You may use your Account only for personal, family or household uses; you may not use the Account
for business purposes. If you do use your Account for business purposes, this Agreement still applies and you must pay us for those
Transactions. We may close your Account if we learn that you are using it for business purposes.
UNLAWFUL TRANSACTIONS: Your Card or Account may not be used directly or indirectly in a manner that would constitute a
crime under local, state or federal law, or in any illegal activity, including without limitation (1) any “racketeering activity” as defined
in 18 U.S.C. § 1961, or (2) any gambling, gaming, betting, or similar activity or transaction. Further, you may not use your Card or
Account for the purchase of any goods or services on the Internet that involve gambling, gaming, betting, or any similar transaction or
activity. Such transactions include, but are not limited to, any quasi-cash or online gambling transaction, any electronic commerce
transaction conducted over an open network, and any betting transaction including the purchase of lottery tickets or casino gaming
chips/checks or off-track betting or wagering. Display of a payment card logo by an online merchant does not mean that internet
gambling or other transactions are legal in the jurisdiction in which you are located. However, in the event that a charge or transaction
described in this paragraph is approved and processed, you will still be responsible for such charges. If you use your Card or Account
directly or indirectly in an unlawful manner you understand that your Account may be declared in default and that we may exercise
any rights available to us, including, but not limited to, accelerating your Account Balance and demanding immediate payment
thereof.
MOBILE PHONES OR OTHER DEVICES: Smart phones, tablets and other electronic devices can store your Card (such as
through a mobile wallet). This means they can be used to make Purchases or other Transactions. Any such Transactions are covered
by this Agreement. Apps that use your Card to make Transactions may have separate terms of use. We are not responsible if you
violate those terms, or for any consequences resulting from any violation.
AGREEMENT AND BENEFIT CHANGES
CHANGES TO THIS AGREEMENT: Account and Agreement terms are not guaranteed for any period of time. We may change
this Agreement for any reason and at any time, subject to applicable law. This means that we can change rates and fees that apply to
your Account. It also means we can add, remove, replace or modify provisions of this Agreement. If required by applicable law, we
will give you notice of the changes. If you have the right to reject a change, we will notify you and tell you how to reject, unless you
fail to make a required minimum payment within sixty (60) days after its due date. If we notify you of a change, we may do so on your
periodic statement or send you a separate written notice, either of which may be sent to you in an electronic format if you have agreed
to receive notices from us electronically. Except as prohibited by law, any change in terms will apply to your existing Account
Balance as well as to future Transactions. We may change the terms of this Agreement based on information in your credit report,
market conditions, business strategy or for any other reason.
CHANGING BENEFITS: Any benefit, reward, service or feature offered may change or be discontinued at any time for any reason.
Separate terms and conditions will describe any exceptions.
ANNUAL PERCENTAGE RATES AND INTEREST CHARGES
VISA NON-VARIABLE RATE PROGRAM: This section explains how we calculate rates and interest charges applicable to your
Account. We use annual percentage rates (APRs) to calculate interest charges on your Account. Our VISA program is a non-variable
rate program, which means that your APR does not increase or decrease except as otherwise provided for in this Agreement. The
Monthly Periodic Rate used in calculating the interest charge (and the corresponding APR) is listed above in the section entitled
Pricing Information Table.
02/01: 8/16/2016

3

INTEREST CHARGES: Interest charges will be imposed on Transactions only if you elect not to pay the entire Account Balance
shown on your periodic statement by the Payment Due Date. If you elect not to pay the entire Account Balance shown on your
periodic statement by the Payment Due Date, interest charges will be imposed on the unpaid Average Daily Balance of Transactions
from the previous statement closing date and on the new Transactions from the date of posting to your account during the current
Billing Period, and will continue to accrue until the closing date of the Billing Period preceding the date on which the entire Account
Balance is paid in full.
We calculate interest on your Account each Billing Period by applying the Monthly Periodic Rate to the Average Daily Balance
(including new Transactions). The following explains how we do this. To get the Average Daily Balance:




We start with the beginning balance of your account each day.
We add any new Transactions, fees and other charges
We subtract any credits or payments credited as of that day and any unpaid interest or other finance charges.

This gives us the daily balance. Then, we add up all the daily balances for the Billing Period and divide the total by the number of
days in the Billing Period. This gives us the average daily balance
GRACE PERIOD: You will not pay any interest on Purchases if you pay the Account Balance, including any Balance Transfers, in
full by the Payment Due Date shown on your periodic statement each Billing Period. We call this a grace period on Purchases.
Generally you will have at least a 21-day grace period from the close of each Billing Period to pay the Account Balance without
incurring additional interest. The Payment Due Date disclosed on each periodic statement provided to you is the last day of your grace
period for that statement’s billing cycle. If you do not pay the Account Balance, including any Balance Transfers, in full by the
Payment Due Date in a Billing Period, you will pay interest on your Purchases from the date they are posted to your Account. You
also will not have a grace period on Purchases again until you pay the Account Balance in full by the Payment Due Date two (2)
Billing Periods in a row.
There is no grace period on Balance Transfers and Cash Advances. This means you will pay interest on Balance Transfers and Cash
Advances from the date these transactions post to your Account.
FEES
The following fees will be added to your Account, as applicable:
FEE

AMOUNT

Annual Cardholder Fee

None

Late Payment Fee

Up to $20

You will be charged a Late Payment Fee of up to $20 if you
do not pay at least an amount equal to the Minimum
Payment Due by the Payment Due Date. The amount of the
Late Payment Fee will never be higher than your Minimum
Payment Due.

Returned Payment Fee

Up to $5

If a payment that was applied to your Account is returned to
us unpaid for any reason, you will be charged a Returned
Payment Fee of up to $5. The Returned Payment Fee will
never be higher than the Minimum Payment Due on the last
Payment Due Date before the payment is returned.

Over the Credit Limit

None

Cash Advance Fee

None

Balance Transfer Fee

None

Foreign Transaction Fee

1% of each transaction in U.S.
Dollars

02/01: 8/16/2016

ABOUT THE FEE

4

See section entitled “Foreign Transactions” below for
additional details.

FEES: CONTINUED
Replacement Card Fee

$10.00

Except as prohibited by applicable law, you may be charged
a Replacement Card Fee for all cards issued other than the
standard re-issue card

Document Fee

$1 per page

If a copy of any periodic statement, sales draft or similar
document is provided by us at your request (other than in
connection with a billing error inquiry), a Document Fee
may be imposed by us on your Account.

Rush Card Fee

$25 3-day

We will charge you a Rush Card Fee to rush each requested
replacement card.

$50 2-day
Returned Convenience
Check Fee

$22

We will charge you a Returned Convenience Check Fee if a
Convenience Check cannot be paid.

Convenience
Stop Payment

$10

We will charge you a Convenience Check Stop Payment Fee
when you place a stop payment on a Convenience Check.

Check

FOREIGN TRANSACTIONS: Purchases, cash advances, and credits made in foreign currencies will be billed to your Account in
U.S. dollars. The conversion to U.S. dollars will be made in accordance with the Visa operating regulations for international
transactions. In the event that an international transaction is converted to U.S. dollars the exchange rate between the transaction
currency and the billing currency used for processing international transactions will be: (1) a rate selected by Visa from the range of
rates available in wholesale currency markets for the applicable central processing date, which rate may vary from the rate Visa itself
receives; or (2) the government-mandated rate in effect for the applicable central processing date. The rate in effect on the applicable
processing date may differ from the rate on the date you used your Card. When a credit to the account does not fully offset a charge to
the account due to changes in the rate, you are responsible for the difference. For Purchases, Cash Advances, and ATM transactions,
we will charge a Foreign Transaction Fee in an amount equal to one percent (1%) of the amount of the Purchase, Cash Advance or
ATM transaction, regardless of whether the transaction requires a currency conversion.
The above fees for the billing cycle will be shown on your periodic statement.
PAYMENTS
MINIMUM PAYMENT FOR PREMIER REWARDS VISA: Every month, you must pay at least the Minimum Payment Due by
the Payment Due Date shown on your periodic statement. The Minimum Payment Due will be either (1) 2.0% of your Account
Balance or $20.00, whichever is greater; or (2) your Account Balance if it is less than $20.00. In addition, you must pay any amount
past due, any late charge and any amount over the Credit Limit.
APPLICATION OF PAYMENTS: We decide how to apply your payments, up to the Minimum Monthly Payment amount, to the
balances on your Account. We will apply the Minimum Monthly Payment amount in the following order: (1) unpaid fees and
charges, if any; (2) unpaid periodic interest charges, Transaction Fees, and other finance charges due on Purchases, Balance Transfers,
and Cash Advances; (3) outstanding balances of Cash Advances, Balance Transfers, and Purchases previously billed, and (4) current
Cash Advances, Balance Transfers and Purchases. If you pay more than the Minimum Payment Due amount, the amount in excess of
the Minimum Payment Due will be applied first to the balances subject to the highest APR and then to balances subject to lower
APRs, in descending order of APRs until all balances subject to an APR are paid in full. You must continue to make payments until
you have paid the Account Balance in full.

02/01: 8/16/2016

5

PAYMENT INSTRUCTIONS: You must follow the instructions below when making a payment. If you do, we will credit the
payment to your Account as of the day we receive it.









Payments should be sent to F&A Federal Credit Union: 2625 Corporate Place Monterey Park, CA. 91754
We must receive your payment on or before the Payment Due Date in order for your Account to be credited by the Payment
Due Date.
You must pay in U.S. Dollars.
You must use a check or electronic debit issued by a financial institution in the United States (do not mail cash).
You must not send us a check dated after the date that we receive it.
You must not enclose more than one check per envelope.
You must not include any restrictive endorsements on the check.
You must follow the additional payment instructions shown on your periodic statement.

If you do not pay in U.S. Dollars and we accept your payment, we will select the currency conversion rate, and you must pay our
costs. If you do not follow our payment instructions, we may not accept your payment, or there may be a delay in crediting your
Account. Either may result in late fees and additional interest charges to your Account. If you do not follow the payment instructions
in this Agreement or on your periodic statement, we may accept your payment without losing our rights.
PREPAYMENT OR IRREGULAR PAYMENTS: Though you need only pay the Minimum Payment Due, you understand that
you have the right to repay your Account Balance at any time without penalty. You also understand and agree that you will only be
charged interest charges to the date you repay your entire Account Balance. You may make larger payments without penalty and this
may reduce the total amount of interest charges that you will repay. If you pay more than the Minimum Payment Due in any month
and there is still a balance due, you must continue to make Minimum Payments in future months. Any partial payment of your
Account Balance will not advance your next payment due date(s). You understand and agree that any payment that (a) delays or (b)
accelerates the repayment of your Account Balance will (a) increase or (b) decrease your Daily Periodic interest charge.
PAYMENTS BY AUTOMATIC TRANSFER: By separate agreement, you may authorize us to automatically transfer the
Minimum Payment Due from your Credit Union savings or checking account. If you request payment by automatic transfer, you
understand and agree that no payment can or will be made if there are insufficient or uncollected funds in the designated savings or
checking account to make the scheduled payment. Should this event occur, you understand and agree that you will not be released
from making the payment. Any automatic transfer you have requested will remain in effect until you cancel it in writing or the
Account Balance is paid in full. To stop a payment by automatic transfer, you may send us a letter requesting that the payment be
stopped. Your letter must be received by F&A Federal Credit Union, Attention: Telephone Service Center, 2625 Corporate Place
Monterey Park, CA. 91754, at least three (3) business days before the automatic payment is scheduled to occur. We may cancel this
service at our discretion.
RECURRING PAYMENTS: The use of your Account to make preauthorized electronic recurring bill payments constitutes an
“electronic fund transfer” as defined by the federal Electronic Fund Transfer Act and Regulation E. You may be able to place a stop
payment on a preauthorized electronic recurring bill payment in accordance with the terms of our Electronic Services & Wire
Transfers Disclosure and Agreement. Any such stop payment order is subject to a Stop Payment Fee of $10 for each stop payment
order you give. A stop payment/revocation order does not release you from the obligation to pay for goods and services purchased
from merchants.
PAYMENTS MARKED “PAID IN FULL”: Payments marked “paid in full” or other language used to indicate full satisfaction of
indebtedness may be accepted by us without being bound by such language or waiving any rights under this Agreement. We will
accept full satisfaction of indebtedness only in a written agreement, signed by an authorized representative of the Credit Union.

02/01: 8/16/2016

6

CREDIT REPORTING
CREDIT REPORTING: In connection with our issuance of a Card to you, we are allowed to obtain information about you. We get it
from Consumer Reporting Agencies and other sources that provide consumer financial information. We are allowed to use the
information for:
 Renewal of your Account;
 Credit Limit increases or decreases;
 Administration or review of your Account, collection and any other servicing;
 All other credit-related purposes connected with this Agreement;
 Offers for other cards, insurance products and other services; and
 Other uses permitted by law.
We report Account information in your name, as well as information about you to Consumer Reporting Agencies, on a monthly basis.
The information we provide may appear on your credit reports. This can include information about:
 Late Payments;
 Returned Payments;
 Over-the-credit-limit amounts; and
 Other violations of this Agreement.
If you think we have given incorrect information to a consumer reporting agency about you (or about an authorized user), contact us at
800 222-1226 and we will research it. We will let you know if we agree or disagree with you. If we agree with you, we will contact
each Consumer Reporting Agency.
ACCOUNT INFORMATION, PRIVACY, AND COMMUNICATIONS
ACCURACY OF AND CHANGES TO ACCOUNT INFORMATION: You represent and warrant that the information provided
in your credit application is accurate, and you agree to notify us in writing immediately if this information changes. If you do not, or
if we ask you to verify your Account information and you cannot, we may suspend or close your Account.
INFORMATION SHARING: You understand and agree that we may share information about you and your Account as permitted
by applicable law. This includes information we obtain from you and others. Our privacy notice describes the circumstances under
which the Credit Union can share its members’ personal information.
CONTACTING YOU: You agree that we (and/or our authorized agents) may contact you at any phone number, email address or
mailing address you provide. This includes communications to mobile, cellular/wireless, or similar devices. We may contact you by
live operator, auto-dialer, prerecorded or artificial voice, text or email. You agree to pay any charges from your plan provider for
communications we send to you, as well as communications you send to us.
CALL MONITORING: We may listen to and record telephone calls between you and us to monitor and improve the quality of
service you receive.
NOTICES: We will send any notices to your billing address, or, if you have agreed to receive notices from us in an electronic
format, we will send notices to you in an electronic form. We consider a notice sent as soon as we mail it. We consider an electronic
notice sent as soon as we email it, unless we receive notification that the email was undeliverable.
EMERGENCY CARD REPLACEMENT AND EMERGENCY CASH DISBURSEMENT SERVICES: You understand and
agree that we may provide information regarding you and your Account to Visa and/or Visa’s authorized agents for the purpose of
providing emergency card replacement and emergency cash disbursement services to you.
AUTHORIZED USERS
ACCOUNT USE BY AUTHORIZED USERS: You may request to add one or more Authorized Users to your Account. If we
approve your request, use of your Account by an Authorized User is subject to the terms of this Agreement. You must:




Obtain permission from each Authorized User before naming him or her as an Authorized User on your Account.
Make a copy of this Agreement available to each Authorized User.
Pay us for all charges incurred by each Authorized User.

02/01: 8/16/2016

7



Notify us to remove an Authorized User from your Account. If we remove an Authorized User, we may close your Account,
open a new Account, and issue you a new Card.

We may limit the number of Authorized Users on your Account.
You are responsible for:





Any Transactions made by an Authorized User on your Account.
Any Transaction made by an Authorized User even if the post date shown on your periodic statement for that Transaction
occurs after the date you ask us to remove the Authorized User from your Account.
Any Transactions made by others if an Authorized User allows them to use your Account.
Fees and charges resulting from any Transactions made by an Authorized User or others if an Authorized User allows them
to use your Account.

ACCOUNT INFORMATION RIGHTS FOR AUTHORIZED USERS: We are permitted to discuss your Account with an
Authorized User. This includes giving him or her access to your Account information and history. You understand and agree that an
Authorized User may use and receive information about the Account the same way you do. An Authorized User cannot add other
Authorized Users, adjust the Credit Limit or close the Account.
WHAT CAN AUTHORIZED USERS DO?








Report lost or stolen Cards
Initiate billing disputes
Change the billing address for your Account
Obtain Account Information, such as Transaction histories
Request periodic statement copies
Make payments
Request refund checks

INFORMATION ABOUT AUTHORIZED USERS: You agree to give us certain personal information about each Authorized
User. You must let each one know that you will give us that information and you must have his or her permission to do so. You must
have permission from each one to allow us to share information about him or her as permitted by applicable law. This includes
information we may obtain from you, any Authorized User and others. It also includes information about their Transactions on the
Account.
CREDIT REPORTING: We report information about this Account to Consumer Reporting Agencies in the Authorized User’s name
that may appear on their credit report. This could include information about:





Late Payments;
Returned Payments;
Over-the-credit-limit amounts; and
Other violations of this Agreement.

You understand and agree that you must let each Authorized User know that we report Account information in his or her name.
Please also refer to the Credit Reporting section above.
DEFAULT, CLOSING OR SUSPENDING THE ACCOUNT
DEFAULT: You will be in default if:








You do not pay at least the Minimum Payment Due or other required payment by the due date;
You have a Returned Payment;
You do not honor any of the terms of this Agreement;
You make any false or misleading statements in any credit application or credit update;
Your creditworthiness is impaired;
You file for bankruptcy or some other insolvency proceeding is filed by or against you; or
You are declared incompetent or mentally incapacitated, or you die.

02/01: 8/16/2016

8

OUR RIGHTS IF YOU ARE IN DEFAULT: If any of the events listed above occurs, we may temporarily or permanently suspend
any and all Account and Card privileges and/or we may demand immediate payment of the Account Balance. We may close or
suspend your Account at any time, without notifying you, as permitted by law. You agree that you will not attempt to make a
Purchase or obtain a Cash Advance after you have been notified that your privilege to use your Account has been terminated. We may
cancel your current Card and issue you a substitute Card at any time. You may close your Account at any time by notifying us by
telephone or in writing. If we close or suspend your Account, or if you close your Account, you understand and agree that you remain
obligated to repay the entire Account Balance. You understand and agree that interest charges at the APR as permitted under this
Agreement will continue to accrue until you repay your entire Account Balance.
CLOSING A VISA SHARE SECURED CREDIT CARD: If your Account is a secured Account, you gave us a security interest in
a deposit account you maintain with us. This secures repayment of your Account. If you withdraw your funds from the deposit
account, we will close your Account. If you gave us a security interest in a deposit account, we may use the deposit amount to pay
any amount you owe.
TRANSACTIONS
REFUSAL OF THE CARD: Most Transactions require approval of funds, which result in placing a hold against the Credit Limit.
We do not guarantee approval of Transactions. We are not liable for those that are not approved, even if you have enough available
credit on your Account. If we detect unusual or suspicious activity, we may suspend your credit privileges. We may also limit the
number of Transactions approved per day. We may, although we are not required to, approve Transactions above your available
Credit Limit.
SUSPICIOUS ACTIVITY: We are committed to keeping your financial transactions as secure as possible. We use a credit card
fraud detection system designed using neural network technology that “learns” your credit card purchase patterns. The system
analyzes authorization requests for your Card in real time and compares them to your purchase history as well as current fraud trends.
If we detect unusual transaction patterns, we can take action to reduce the potential for fraud, including but not limited to suspending
credit privileges. As your profile and transactions change over time, the system updates its files. We reserve the right to identify
Transactions as unauthorized or fraudulent and subsequently to decline those Transactions. We are not responsible for any loss or
damage arising out of any declined Transaction.
TRAVEL ADVISORY: A Transaction in a geographic area where you do not usually use your Card may trigger the credit card
fraud detection system. We encourage you to provide us with prior notice of any anticipated Card activity that may be out of your
ordinary pattern of Card Transactions, such as high transaction volume and any anticipated transactions outside the U.S. You may
provide this notice by calling:




Domestic: (800) 222-1226
International: (800) 222-1226
To verify Account activity if Card is blocked: (800) 222-1226

MERCHANT FEES: Some merchants, including merchants outside the U.S., may charge you a fee to use your Card for a Purchase.
The fee may be either a percentage of the amount of your Purchase or a flat fee, and will be added to the amount of your Purchase.
Usually, a merchant will tell you about this fee before you use your Card, but not always. We do not control these fees and we cannot
prevent them.
MERCHANT DISPUTES: The Credit Union is not responsible for the refusal of any merchant or financial institution to honor the
Account and/or Card. We are subject to claims and defenses (other than tort claims) arising out of goods or services you purchase
with the Card only if you have made a good faith attempt but have been unable to obtain satisfaction from the merchant, and (1) your
Purchase was made in response to an advertisement we sent or participated in sending you; or (2) your Purchase cost more than $50
and was made from a merchant in your state or within 100 miles of your current mailing address. Any other dispute you must resolve
directly with the merchant. If you dispute a charge with a merchant, we may, at our discretion, credit your Account for all or part of
the disputed charge. If we do so, you assign and transfer to us all rights and claims (excluding tort claims) against the merchant. You
agree that you will not pursue any claim against the merchant for the credited amount, and you must cooperate with us if we decide to
do so.

02/01: 8/16/2016

9

RETURNS AND ADJUSTMENTS: If a merchant discloses a policy such as “no returns,” “no refunds,” “no return or credit without
receipt,” “as is,” “store credit only” or “all sales final,” you will be bound by that policy when you use your Card to buy goods or
services from that merchant. A merchant refund to your Account will post to your Account as a credit. We do not control when a
merchant sends an Account credit. We will choose how to apply the credit to your existing Account Balance. If a credit fails to post
to your Account, you may request our help in having the credit applied to your Account by sending us a copy of the credit receipt
issued by the merchant. You have the sole responsibility to obtain written proof of credit and to retain copies of credit receipts until
the credit is properly applied to your Account. If your credits and payments exceed what you owe us, we will hold and apply this
credit balance against future Transactions, or if it is $1.00 or more, refund it on your written request or automatically after six (6)
months.
RECURRING AUTHORIZED TRANSACTIONS: If you authorize a merchant or any other person to charge your Account for
recurring Transactions, you must notify the merchant if:
 You want to discontinue these Transactions;
 Your Account is closed;
 Your Account number changes;
 Your Card expiration date changes.
You are responsible for reinstating any recurring authorized Transactions.
TERMS AND CONDITIONS APPLICABLE TO VISA CONVENIENCE CHECKS
CHECK USES: Convenience Checks (including balance transfer checks) are checks that the Credit Union may send you to access
your Account from time to time. The following terms will apply to the use of those checks unless otherwise disclosed with the
checks. You can use your Convenience Checks to purchase goods and services, to obtain cash up to the amount of your Credit Limit,
or to conduct Balance Transfers up to the amount of your Credit Limit. Use of Convenience Checks to purchase goods and services or
to obtain cash up to the amount of your Credit Limit is considered a Cash Advance on your account. The Credit Union will charge
interest beginning as of the date the Credit Union receives the Convenience Check. You cannot avoid paying interest on Convenience
Check transactions. Any special rules applicable to credit card purchases described in this Agreement or any other features pertaining
to card purchases do not apply to Convenience Checks. Convenience Checks do not earn Extra Awards points.
LIMITATIONS: We are not required to honor a Convenience Check that will cause you to exceed your Credit Limit. We will not
pay a Convenience Check if at the time that it is presented:


The amount of the Convenience Check would cause you to exceed your Cash Advance Credit Limit;



You are in default or we have suspended, terminated, or canceled your Account;



The Convenience Check is not in the form we have issued to you;



Your signature or the payee’s name or endorsement is missing on the Convenience Check or the Convenience Check appears
altered; or



Your Convenience Check is post-dated.

Convenience Checks may be used only by the person(s) whose name(s) is/are printed on the check. You are responsible for all
authorized use of Convenience Checks. You may not use Convenience Checks to make a payment on any other obligation you have
with the Credit Union, including paying any amount that you owe us pursuant to this Agreement. Certain merchants may inform you
of their intent to convert your Convenience Check payment to an electronic ACH debit. For mailed payments, this notification will be
provided at the time you receive a bill. For payments made in person, this notification will be provided at the time payment is made.
You understand and agree that Convenience Checks are ineligible for conversion to an ACH debit and if presented by a merchant to us
for payment, we are required to reject and return the entry. Using Convenience Checks for payments to merchants who have notified
you of their intent to convert your check to an ACH debit may result in merchant returned item fees and/or late charges. You further
understand and agree that you may not attempt to authorize a one-time advance from your Account via ACH by providing check
information (such as the routing, account, and serial numbers) to a merchant or other payee in person, via the Internet or by telephone
for the purpose of having such merchant or other payee electronically initiate a funds transfer. The Credit Union will not be liable for
any fees you incur as a result of the Credit Union’s failure to honor a Convenience Check that is converted to an ACH debit.
PERIODIC STATEMENTS: Your periodic statement will show you an itemization of the Convenience Checks posted to your
Account during the billing cycle. Convenience Checks paid by the Credit Union will not be returned to you with your periodic
statement.
02/01: 8/16/2016

10

RETURNED CONVENIENCE CHECK FEE: The Credit Union will charge you a Returned Convenience Check Fee of $22 per
returned check which will be billed to your Account if a Convenience Check(s) cannot be paid. The Credit Union may decline to
honor such Convenience Checks if, for example:


The amount of the Convenience Check would cause you to exceed your Cash Advance Credit Limit;



If you are in default;



If you did not comply with the instructions included with the Convenience Check;



If the Convenience Check appears altered or is missing information;



The Convenience Check was used by someone other than the person to whom the Convenience Check was sent;



The Card has expired or was revoked;



Your Account is closed or suspended; or



The Convenience Check was converted to an ACH transaction.

STOP PAYMENT: Provided your request is timely, you may order a stop payment on a Convenience Check drawn on your
Account. To stop payment on a Convenience Check, you must call us at (800) 222-1226 during regular business hours and provide us
with the following information: the Account number, the payee, any check number that may be applicable, and the exact amount of
the Convenience Check. If you order a stop payment on a Convenience Check orally, the order will be valid for only fourteen (14)
days thereafter, unless confirmed in writing. Written stop payment orders will remain in effect only for six (6) months, unless
renewed in writing. You have the burden of establishing the fact and amount of loss resulting from payment contrary to a binding stop
payment. The Credit Union will charge a Convenience Check Stop Payment Fee of $10 when you place a stop payment on a
Convenience Check which will be billed to your Account. The Credit Union is not required to notify you when a stop payment order
expires. If the Credit Union re-credits your Account after paying a Convenience Check over a valid and timely stop payment order,
you agree to sign a statement describing the dispute with the payee, to assign to the Credit Union all of your rights against the payee or
other holders of the check and to assist the Credit Union in any legal action. You agree to indemnify and hold the Credit Union
harmless from all costs and expenses, including attorneys’ fees, damages, or claims, related to the Credit Union honoring your stop
payment request or in failing to stop payment of an item as a result of incorrect information provided to the Credit Union or the giving
of inadequate time to act upon a stop payment request.
SURRENDER OF CONVENIENCE CHECKS: Convenience Checks are the Credit Union’s property; the Credit Union reserves
the right to revoke them at any time. You agree to return them at the Credit Union’s request
MISCELLANEOUS
PROMOTIONAL RATE OFFERS: From time to time and at our discretion, we may offer you a promotional APR for all or any
part of your Account Balance, Balance Transfer or future transactions. The period of time for which the promotional APR applies
may be limited. Any applicable promotional APR, the corresponding periodic rates, and the period of time during which they are in
effect will appear on the offer. Any promotional rate offer will be subject to the terms of the offer and this Agreement.
LOST OR STOLEN CARD, NOTIFICATION AND LIABILITY: You will notify us IMMEDIATELY if you believe that your
Card, Account number, PIN, or any combination of the three has been lost or stolen by immediately calling us at (323) 268-1226 or
toll-free at (800) 222-1226. For 24-hour card service, call (800) 682-6075. Telephoning is the best way of keeping your possible
losses down. You will not be liable for any unauthorized use that occurs after you notify us. You may, however, be liable for
unauthorized use that occurs before your notice to us. In any case, your total liability to us will not exceed $50.00 for any Account
and/or Card Transactions resulting from the loss, theft, or other unauthorized use of the Account and/or Card that occurs prior to the
time you give notice to us. Your liability for unauthorized use may be lower in cases of Visa Card fraud in accordance with current
Visa U.S.A., Inc. Operating Rules.
You agree that in the event of a lost, stolen, not received or counterfeited card or fraudulent activity on your Account, you and all
parties given access to the Account will complete an affidavit of forgery in a form approved by the Credit Union. Claims of
unauthorized use can be made only in connection with posted and settled transactions. You also agree to assist us in determining the
facts, circumstances, and other pertinent information related to any loss, theft or possible unauthorized use of your Card, Account
number or PIN and to comply with such other procedures as we may require in connection with our investigation, including but not
limited to providing us with all requested information supporting your claim.
02/01: 8/16/2016

11

LIMITATION OF LIABILITY FOR VISA TRANSACTIONS: If there is an unauthorized use of your Visa Card, and the
transaction takes place on the Visa network, then your liability will be zero ($0.00). This provision limiting your liability does not
apply to Visa Corporate Card or Visa Purchasing Card Transactions, ATM cash disbursements processed on non-Visa or non-Plus
networks, or non-Visa PIN-less debit transactions. Additionally, your liability with respect to unauthorized transactions may be
greater than the above zero ($0.00) liability limit, to the extent allowed under applicable law, if we reasonably determine that you were
grossly negligent or fraudulent in the handling of your Account or Card.
VISA SHARE SECURED CREDIT CARD: If you have signed a separate Share Pledge Agreement, you understand and agree that
you are pledging funds now on deposit in a deposit account you have with us. You understand that you must, at all times, keep a sum
equal to your Credit Limit on deposit in the designated deposit account identified on the Share Pledge Agreement until you repay your
entire Account Balance and the Account is closed. You understand and agree that this security interest will cover future Transactions
under this Agreement. If you default, we may apply the pledged funds to repay your Account Balance in accordance with federal or
other law. You understand that the APR applicable to your Account does not take into account the amount pledged in your designated
deposit account.
INACTIVE ACCOUNT: If your Account does not have any activity for eighteen (18) consecutive months, it will be considered an
inactive account and your ability to take advances against your Credit Limit may be suspended. If your Account is inactive for twenty
four (24) consecutive months, we may close it.
PERIODIC STATEMENTS: Your Card or other Account activity will be reflected on your monthly periodic statement (Statement).
We will send you a Statement for each Billing Period in which Transaction activity has occurred on your Account, and at least
quarterly if no activity has occurred. Your Statement will identify the merchant, electronic terminal, or financial institution at which
transactions were made, but sales, cash advance, credit, or other receipts cannot be returned with the Statement. You agree to retain
the copy of such receipts furnished at the time of the transaction in order to reconcile your Statement. If you request a copy of any
sales draft or similar document, a Document Fee may be imposed by us. This fee will not be imposed, however, if it was requested in
connection with a billing error. Statements will be mailed or delivered electronically if you have agreed to receive notices from us in
an electronic format only to the address of the person named first on the Account.
AUTOMATIC OVERDRAFT AUTHORIZATION: By having an Account, you are automatically enrolled in the Account’s
automatic overdraft protection program. What that means is we may clear any overdrafts from your Credit Union checking account
by an advance from your Account in the amount of the overdraft, plus applicable overdraft fees, subject to the terms of this
Agreement. If there are not sufficient funds available for overdraft protection, your items may be returned unpaid. All overdrafts are
treated as Cash Advances. Your Account must be current and not over the Credit Limit for funds to transfer to your checking account.
The checking account referred to herein is also subject to a separate agreement between you and us. Where the terms of any other
agreement between you and us conflict with the terms of this Agreement, the terms of this Agreement will control.
ASSIGNMENT: We may sell, transfer or assign this Agreement and your Account to a third party at any time without notifying you.
You may not sell, assign or transfer your Account or any of your obligations under this Agreement.
ENFORCING THIS AGREEMENT: We will not lose our rights under this Agreement because we delay in enforcing them or fail
to enforce them.
SEVERABILITY AND FINAL EXPRESSION: This Agreement is the final expression of the terms and conditions of your
Account. This Agreement may not be contradicted by evidence of any alleged oral agreement. Should any part of this Agreement be
found to be invalid or unenforceable, all other parts of this Agreement shall remain in effect and fully enforceable to the fullest extent
possible.
INTEGRATED DOCUMENT(S): You understand and agree that any separate sheet of paper, which is delivered together with this
Agreement and incorporates this Agreement by reference, is an integrated part of this Agreement. Any future amendments to this
Agreement will be labeled as such and will form an integrated part of this Agreement.
COLLECTION COSTS: To the extent permitted by law, you are liable to us for our legal costs if we refer collection of your
Account to an attorney who is not our salaried employee. These costs may include reasonable attorneys’ fees, as well as costs and
expenses of any legal action. You understand and agree that interest charges will continue to accrue at the APR permitted under this
Agreement until you repay your entire Account Balance.

02/01: 8/16/2016

12

UNFORSEEN CIRCUMSTANCES: From time to time, our services might be unavailable due to circumstances beyond our control,
such as fires, floods, natural disasters, system failures or other unpredictable events. When this happens, you may not be able to use
your Card or obtain information about your Account. We are not responsible or liable if this happens.
GOVERNING LAW: You understand and agree that this Agreement is made in California will be governed by the laws of the State
of California to the extent that California law is not inconsistent with controlling federal law. You also understand and agree that
California's choice of law rules shall not be applied if they would result in the application of non-California law.
MEMBERSHIP REQUIREMENT: You understand and agree that you must be and remain a member in good standing with us to
be eligible for continuing Account and/or Card privileges including future Transactions. You understand and agree that we may
suspend or close the Account and/or Card privileges during any period in which you do not maintain your membership with us.
FINAL EXPRESSION: This Agreement is the final expression of the terms and conditions of your Account. This Agreement may
not be contradicted by evidence of any alleged oral agreement.
COPY RECEIVED: You acknowledge receipt of a copy of this Agreement and agree to accept its terms.
NOTICE: See the statement below for important information regarding your right to dispute billing errors.
YOUR BILLING RIGHTS: KEEP THIS DOCUMENT FOR FUTURE USE

This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:
F&A Federal Credit Union
2625 Corporate Place
Monterey Park, CA 91754
Attention: Electronic Services Department
In your letter, give us the following information:
 Account information: Your name and account number.
 Dollar amount: The dollar amount of the suspected error.
 Description of Problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a
mistake.
You must contact us:
 Within 60 days after the error appeared on your statement.
 At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is
wrong.
You must notify us of any potential errors in writing. You may call us; but if you do, we are not required to investigate any potential
errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have
already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
3. We cannot try to collect the amount in question or report you as delinquent on that amount.
4. The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
5. While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
6. We can apply any unpaid amount against your Credit Limit.
02/01: 8/16/2016

13

After we finish our investigation, one of two things will happen:
 If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
 If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees.
We will send you a statement of the amount you owe and the date payment is due. We may then report you as delinquent if you
do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to
pay. If you do so, we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the
name of anyone to whom we reported you as delinquent; and we must let those organizations know when the matter has been settled
between us. If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question even if your bill
is correct.
Your Rights If You are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to
correct the problem with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase
price must have been more than $50. (Note: Neither of these are necessary if your purchase was based on an advertisement we
mailed to you or if we own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that
accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, you will contact us in writing at:
F&A Federal Credit Union
2625 Corporate Place
Monterey Park, CA 91754
Attention: Electronic Services Department
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell
you our decision. At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

02/01: 8/16/2016

14

F&A FEDERAL CREDIT UNION PRICING INFORMATION
AS OF AUGUST 16, 2016

Non-Variable Annual Percentage Rate (APR)*
Visa rates apply to purchases, balance transfers,
cash advances and convenience checks.
Premiere Low Rate Visa
Premiere Rewards Visa
Traditional Visa
Penalty APR and When it Applies
Paying Interest

Fees
Annual
Transaction Fees
Balance Transfer
Cash Advance
Foreign Transaction

Penalty Fees
Late Payment
Returned Payment
Over the Credit Limit

6.90%-14.50%
8.90%-15.50%
9.90%-15.90%
None.
Your due date is at least 21 days after the close of
each billing cycle. We will not charge you interest on
purchases if you pay your entire balance by the due
date each month. We will begin charging interest on
cash advances and balance transfers on the
transaction date.
None
None
None
1% of each transaction in U.S. dollars

Up to $20
Up to $5
None

How We Will Calculate Your Balance: We will use a method called “average daily balance (including new purchases).”
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided at the end of
this Agreement.

02/01: 8/16/2016

15

